OFFICE OF INSPECTOR GENERAL
         Audit Report

 Audit of Internal Controls Over
  Dummy Vendor Transactions


          Report No. 11-09
           August 4, 2011




 RAILROAD RETIREMENT BOARD
                                EXECUTIVE SUMMARY

The Railroad Retirement Board (RRB), Office of Inspector General (OIG) reviewed the
internal controls over dummy vendor transactions. Some funds are obligated in the
Federal Financial System (FFS) without being associated with a specific person or a
vendor, using “dummy vendor” as the vendor name for travel, relocation expense and
service order transactions. The objective of the audit was to evaluate the RRB’s
internal controls over dummy vendor transactions.

The RRB conducted this audit at the RRB’s headquarters in Chicago, Illinois from
November 2010 through June 2011.

Findings

The OIG identified the following weaknesses:

   •   Service order disbursements were not always consistently recorded in FFS.

   •   Travel disbursements did not always include required documentation.

   •   Travel agency fees were not reconciled to RRB travel vouchers.

   •   Service order obligations did not include the required approvals.

   •   Guidance for the use of dummy vendor transactions has not been officially
       documented.

Recommendations

To improve the internal controls over dummy vendor transactions, we recommended
that agency management:

   •   Identify, reconcile and post all erroneously purged transactions to the
       corresponding FFS vendor document cross-reference table.

   •   Develop procedures to reconcile and post FFS disbursements in the document
       reference table to the vendor document cross-reference table.

   •   Strengthen the review and approval controls for travel vouchers and supporting
       documentation.

   •   Issue a reminder notice to agency employees regarding appropriate
       documentation for travel vouchers.

   •   Strengthen controls to ensure that disbursements are supported by RRB travel
       vouchers.

                                             i
   •   Remind travelers to include all fees on their travel vouchers.

   •   Take corrective action for the noted discrepancies to ensure that the appropriate
       reimbursements are made.

   •   Strengthen the second-level review and approval process for service order
       obligation approval requests submitted via e-mail.

   •   Issue formal guidance for the request of second-level approval for obligations.

   •   Develop procedures for dummy vendor transactions in FFS.

Management Responses

The Bureau of Fiscal Operations agreed with the finding regarding the inconsistent
recording for some service order disbursements, but they stated that the entries to the
table were purged and that they can no longer be identified. They agreed to take
corrective action for the other seven recommendations directed to them. The Office of
Administration agreed to take corrective action on the three recommendations directed
to them. The full text of the Bureau of Fiscal Operations’ response is included in this
report as Appendix III and the Office of Administration’s response is included as
Appendix IV.




                                            ii
                                            TABLE OF CONTENTS

EXECUTIVE SUMMARY 
INTRODUCTION 
 Background ............................................................................................................................... 1 
 Audit Objective.......................................................................................................................... 2 
 Scope ......................................................................................................................................... 2 
 Methodology.............................................................................................................................. 2 
RESULTS OF AUDIT 
 Service Order Disbursements were Not Always Consistently Recorded ........................ 4 
    Recommendations ............................................................................................................... 5 
    Management's Response ................................................................................................... 5 
    RRB-OIG’s Comments on Management’s Response .................................................... 5 
 Disbursements Made Based on Inadequate Travel Documentation ............................... 5 
    Recommendations ............................................................................................................... 6 
    Management's Response ................................................................................................... 6 
 Credit Card Bills Used Instead of Travel Vouchers as Basis for Payments ................... 6 
    Recommendations ............................................................................................................... 7 
    Management's Response ................................................................................................... 7 
 Inadequate Support for Second-Level Approval of Service Order Obligations .............. 7 
    Recommendations ............................................................................................................... 8 
    Management's Response ................................................................................................... 8 
 No Documented Guidance for Dummy Vendor Transactions ........................................... 8 
    Recommendation ................................................................................................................. 9 
    Management's Response ................................................................................................... 9 
APPENDICES 
 Appendix I Non-Statistical Sampling - Service Order Transactions ............................... 10 
 Appendix II Non-Statistical Sampling - Travel Transactions ........................................... 13 
 Appendix III Management’s Response – Bureau of Fiscal Operations ......................... 15 
 Appendix IV Management’s Response – Office of Administration ................................. 17 




                                                                      iii
                                    INTRODUCTION

This report presents the results of the Office of Inspector General’s (OIG) audit of the
Railroad Retirement Board’s (RRB) internal controls over dummy vendor transactions.

Background

The RRB is an independent agency in the executive branch of the Federal government.
The RRB administers the health and welfare provisions of the Railroad Retirement Act
(RRA), which provide retirement survivor benefits for eligible railroad employees, their
spouses, widows and other survivors. During fiscal year (FY) 2010, approximately
582,000 annuitants received benefits totaling $10.8 billion under the RRA.

The Bureau of Fiscal Operations (BFO) disburses payments through the Federal
Financial System (FFS) to vendors and suppliers that provide goods and services to the
RRB. BFO is the organizational owner of FFS, which is a mainframe application that
supports financial management operations including purchasing, accounts payable and
financial statement reporting. FFS includes features that support transaction recording
and monitoring.

The RRB uses dummy vendor transactions to conceal personally identifiable
information from most FFS screens. Some funds are obligated in FFS without being
associated with a specific person or vendor, using “dummy vendor” as the vendor name
for travel, relocation expense and service order transactions. During FY 2010, BFO
processed 9,500 vouchers totaling $16.5 million in travel, employee, and vendor
payments, which included $3.6 million in dummy vendor transactions. The RRB began
using dummy vendors for service order transactions in FY 2005.

Travel transactions for employees are processed on-line through the E-2 Travel system,
which is a General Services Administration contracted system with Carlson Wagonlit.
Travel itineraries and travel vouchers are prepared using the E-2 Travel system. Travel
obligations and expenses are established in the E-2 Travel system and these
transactions are recorded in FFS via an interface. BFO’s Accounts Payable section
reviews the travel voucher and provides approval for reimbursement.

The RRB has contracted with the Bureau of Public Debt (BPD) to process relocation
expense transactions for employees who have a change of workstation. The BPD
interviews the RRB employee and provides an estimate of relocation expenses for items
such as housing, rental, storage, and other expenses. These estimated expenses are
used by the RRB bureau in which the employee works, to establish the obligation in
FFS. The BPD disburses payments directly to vendors for moving expenses.

The Accounts Payable section records the disbursement in FFS from the Department of
Treasury’s Governmentwide Account Statement. These transactions impact financial
statement reporting and are susceptible to fraud, waste and abuse.


                                            1
The agency also uses dummy vendor transactions for service orders, which are
recurring obligations and employee reimbursements for non-travel transactions. The
dummy vendor transactions for recurring obligations facilitate disbursements to multiple
vendors from one obligation, such as for electrical service for all RRB offices. The first
level of obligation approval is provided within the respective bureau. Staff in the Office
of Administration serves as the second-level approver in FFS for service order
obligations.

The RRB’s strategic plan includes effective, efficient and secure internal operations as
objectives within the agency’s larger goal of serving as responsible stewards of the trust
funds and financial resources under agency control. This audit supports the RRB in
achieving this goal as well as the OIG’s annual audit of the RRB’s financial statements.

Audit Objective

The audit objective was to evaluate the RRB’s internal controls over dummy vendor
transactions.

Scope

The audit scope was limited to the evaluation of dummy vendor transactions recorded in
FFS during FY 2010.

Methodology

To accomplish the audit objective, we:

   •   identified criteria from Government Accountability Office’s (GAO) “Standards for
       Internal Control in the Federal Government”;

   •   identified and reviewed applicable laws, regulations, and agency procedures;

   •    obtained a download of dummy vendor transactions recorded in FFS during
        FY 2010;

   •    selected a non-statistical sample of service order transactions (see Appendix I);

   •    selected a non-statistical sample of travel transactions (see Appendix II);

   •    assessed internal controls; and

   •    interviewed agency management and staff.




                                             2
We assessed the reliability of FFS data by performing electronic testing of required data
elements, reviewing existing information about the data and the system that produced
the data, and interviewing agency officials knowledgeable about the data. We
determined that the FFS data were sufficiently reliable for the purposes of this audit.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

We conducted our fieldwork at the RRB’s headquarters in Chicago, Illinois from
November 2010 through June 2011.




                                            3
______________________________________________________________________________
                             RESULTS OF AUDIT

Our audit determined that internal controls over dummy vendor transactions were not
effective or adequate to ensure the completeness and accuracy of the transactions. We
found that:

   •   service order disbursements were not always consistently recorded in FFS;

   •   travel disbursements did not always include required documentation;

   •   travel agency fees were not reconciled to the RRB travel vouchers;

   •   service order obligations did not include the required approvals; and

   •   there were no documented procedures for dummy vendor transactions in FFS.

The details of our findings and recommendations follow. Responses from agency
management are included in this report as Appendices III and IV.


Service Order Disbursements were Not Always Consistently Recorded

Service order disbursements were not always properly recorded in FFS. We found 3
out of 34 instances (9%) where disbursements were recorded in the FFS document
reference table and not in the vendor document cross-reference table. These
transactions totaled $24,575.

According to agency management, FFS disbursements are recorded in the document
reference table and the vendor document cross-reference table.

BFO explained that these records were erroneously removed from the vendor document
cross-reference table during a periodic purging process during the first part of FY 2010.
Although this problem has been corrected, the erroneously purged records were not
subsequently reposted to the vendor document cross-reference table.

As a result, the FFS audit trail for these transactions is incomplete.




                                             4
Recommendations:

We recommend that the Bureau of Fiscal Operations:

       1. identify, reconcile and post all erroneously purged transactions to the
          corresponding FFS vendor document cross-reference table; and

       2. develop procedures to reconcile and post FFS disbursements in the
          document reference table to the vendor document cross-reference table.

Management’s Response

In regard to recommendation 1, the Bureau of Fiscal Operations agreed that any
variables used as a means to track accounting data should be appropriately identified,
reconciled, and posted. They also stated that the entries to the table were purged and
they can no longer be identified.

In regard to recommendation 2, the Bureau of Fiscal Operations agreed that accounting
procedures should include appropriate reconciliation of FFS disbursements. They
stated that they plan to write a script which will perform an automatic match of the day’s
processed transactions (which are associated with a vendor code) with the vendor
document cross-reference table. The output will be a report which will be generated if
there is an exception.

RRB-OIG’s Comments on Management’s Response

In regard to recommendation 1, the OIG disagrees that the entries in the vendor
document cross-reference table can no longer be identified. The OIG believes that a
match between the document reference table and the vendor document cross-reference
table could be performed to identify the erroneously purged transactions. An
incomplete audit trail of disbursements by vendor could hinder the agency from a
customer service perspective, such as responding to disbursement inquiries or
identifying the frequency in which the RRB conducts business transactions with a
particular vendor.


Disbursements Made Based on Inadequate Travel Documentation

Internal controls were not sufficient to ensure that transactions are properly
documented. During our review, we found that inadequate documentation was used to
support agency disbursements for airline fares for 7 out of 45 (16%) travel transactions.
The travelers’ airline itineraries were provided instead of the airfare receipts. The
agency disbursed $2,059 in undocumented airfare fees.

The airline itinerary is only considered as an invoice when it includes the cost of travel.
Also, agency procedure requires receipts for travel transactions over $75.00.

                                             5
The review and approval process of documentation used to support the vouchers is
ineffective. BFO approved the disbursements without the required airline receipts.

The lack of adequate documentation not only represents non-compliance with the
RRB’s policies and procedures, it weakens the operational audit trail and affects the
agency’s financial statements.

Recommendations:

We recommend that the Bureau of Fiscal Operations:

          3. strengthen the review and approval controls for travel vouchers and supporting
             documentation; and

          4. issue a reminder notice to agency employees regarding appropriate
             documentation for travel vouchers.

Management’s Response

In regard to recommendation 3, the Bureau of Fiscal Operations concurred with the
recommendation and stated that they will strengthen the review and approval controls
for travel vouchers and supporting documentation.

In regard to recommendation 4, the Bureau of Fiscal Operations concurred with the
recommendation and stated that they will issue a reminder notice regarding appropriate
documentation for travel vouchers.


Credit Card Bills Used Instead of Travel Vouchers as Basis for Payments

The validation process for travel agency fees was ineffective. Internal controls were
insufficient to ensure that travel agency fees are reconciled to RRB travel vouchers.
During our review, we found 8 out of 45 instances (18%) where the RRB did not pay the
travel agent or the disbursements did not agree with the fees recorded on the travel
voucher. The discrepancies totaled $313.

Transactions should be promptly recorded to maintain their relevance and value to
management in controlling operations and making decisions. This applies to the entire
process or life cycle of a transaction or event from the initiation and authorization
through its final classification in summary records. In addition, control activities help to
ensure that all transactions are completely and accurately recorded. 1




1
    “Standards for Internal Control in the Federal Government,” GAO/AIMD 00-21.3.1 (11/99) page 17.

                                                        6
Disbursements to the travel agent are made based on billed amounts rather than fees
recorded on the individual travel vouchers. BFO explained that differences could result
between the RRB records and the travel agent’s records when the traveler does not
record all fees incurred.

Inaccurate disbursements result in potential overpayments or underpayments to the
travel agent.

Recommendations:

We recommend that the Bureau of Fiscal Operations:

      5. strengthen controls to ensure that disbursements are supported by RRB travel
         vouchers;

      6. remind travelers to include all fees on their travel vouchers; and

      7. take corrective action for the noted discrepancies to ensure that the
         appropriate reimbursements are made.

Management’s Response

In regard to recommendation 5, the Bureau of Fiscal Operations concurred with the
recommendation and stated that they will strengthen controls to ensure that
disbursements are supported.

In regard to recommendation 6, the Bureau of Fiscal Operations concurred with the
recommendation and stated that they will remind travelers to include all fees on the
travel voucher.

In regard to recommendation 7, the Bureau of Fiscal Operations concurred with the
recommendation and stated that they will research the noted exceptions and take the
necessary actions to ensure the appropriate reimbursements.


Inadequate Support for Second-Level Approval of Service Order Obligations

Agency procedures were not always followed for the approval process for service order
obligations. During our review, we found second-level approval of the obligation was
provided without evidence of bureau-head approval in 2 out of 10 cases (20%), totaling
$779. The authority to obligate funds per bureau-head approval is not always provided.




                                            7
The procedure established by the Office of Administration requires that a request for
second-level approval be made through an e-mail request and it should state that the
request has been approved by the bureau head. In addition, the procedure for second-
level approval requests was issued informally by e-mail rather than by official,
documented guidance.

These exceptions resulted from an inadequate review and approval process provided
by the second-level approver. Approving obligations without evidence of bureau-head
approval could result in the improper use of funds available for agency obligations.

Recommendations:

We recommend that the Office of Administration:

          8. strengthen the second-level review and approval process for service order
             obligation approval requests submitted via e-mail; and

          9. issue formal guidance for the request of second-level approval for obligations.

Management’s Response

In regard to recommendation 8 and recommendation 9, the Office of Administration
concurred with both recommendations.


No Documented Guidance for Dummy Vendor Transactions
Internal controls were not sufficient to ensure that agency guidance for dummy vendor
transactions was documented. The agency does not have official documented
guidance for the use of dummy vendor transactions established in FFS.

Internal controls, all transactions, and other significant events need to be clearly
documented, and the documentation should be readily available for examination. The
documentation should appear in management directives, administrative policies, or
operating manuals and may be in paper or electronic form. All documentation and
records should be properly managed and maintained. 2

The agency did not recognize the need to document procedures for dummy vendor
transactions. The lack of formal guidance could cause inefficient completion and errors
for travel and service order transactions.




2
    “Standards for Internal Control in the Federal Government,” GAO/AIMD 00-21.3.1 (11/99) page 17.

                                                          8
Recommendation:

We recommend that the Bureau of Fiscal Operations and the Office of Administration:

     10. develop procedures for dummy vendor transactions in FFS.

Management’s Response

In regard to recommendation 10, the Bureau of Fiscal Operations concurred with the
recommendation and stated that they will work with the Office of Administration to
develop procedures for the use of dummy vendors in FFS.

In regard to recommendation 10, the Office of Administration concurred with the
recommendation.




                                           9
                                                                            APPENDIX I

                     SAMPLING METHODOLOGY AND RESULTS
                            Non-Statistical Sampling
                           Service Order Transactions


This appendix presents the methodology and results of our non-statistical sampling test
for service order transactions.

Sample Objective

The objective of our sample was to determine if dummy vendor transactions were
processed accurately and to assess the effectiveness of the internal controls. The
control activities tested included appropriate documentation of transactions; proper
approvals; proper authorizations; segregation of duties; accurate recording of
transactions; and pre-existing obligations for transactions.

Scope

The universe of dummy vendors for service order transactions consisted of 157 service
orders totaling $2,507,533. Each service order transaction included payments to one or
more vendors (e.g., one obligation for a gas utility could have 22 separate payment
vouchers, whereas another could have 169 payment vouchers). All dummy vendors in
the universe were subject to selection.

Review Methodology

We used GAO “Standards for Internal Control in the Federal Government” as criteria for
our assessment. For each service order transaction in the sample, we evaluated
whether the dummy vendor transaction included:

   •    appropriate documentation;

   •    proper approvals;

   •    proper authorization;

   •    pre-existing obligations recorded in FFS;

   •    segregation of duties; and

   •    accurate recording in FFS.




                                           10
                                                                                 APPENDIX I

                        SAMPLING METHODOLOGY AND RESULTS
                               Non-Statistical Sampling
                              Service Order Transactions

Sampling Methodology and Results

We randomly selected 10 service orders from the universe. These 10 service orders
resulted in 34 payment vouchers.

Our evaluation identified 5 instances where the service order transactions did not meet
GAO internal controls standards. Each transaction was subject to multiple tests; as a
result, each transaction could be cited for multiple exceptions. See the results of the
following attributes:


                               Obligations for Service Orders
                                                      Obligations     Non-
           Test Attributes for Obligations                                        Exceptions
                                                       Tested       Exceptions

Appropriate documentation for second approval of
                                                          10            8             2
obligation

Proper authorizations                                     10           10             0

Pre-existing obligations recorded in FFS                  10           10             0

Segregation of duties                                     10           10             0
                                   Total Exceptions                                   2


                           Payment Vouchers for Service Orders
                                                                      Non-
         Test Attributes for Disbursements              Tested                    Exceptions
                                                                    Exceptions
Appropriate documentation to support the
                                                          34           34             0
disbursement

Proper approvals by BFO staff for disbursements           34           34             0

Proper authorizations from bureau management              34           34             0

Accurate recording of transactions in FFS                 34           31             3
                                   Total Exceptions                                   3




                                             11
                                                                             APPENDIX I

                    SAMPLING METHODOLOGY AND RESULTS
                           Non-Statistical Sampling
                          Service Order Transactions

Audit Conclusion

Our non-statistical sampling test identified 5 exceptions. As a result, we concluded that
improvements are needed for appropriate documentation for second approval of
obligations and for accurate recording in FFS for dummy vendor service order
transactions. The internal controls over dummy vendor service order transactions
relative to appropriate documentation and accurate recording of transactions were
found to be ineffective.

No exceptions were found for proper authorizations, pre-existing obligations recorded in
FFS, segregation of duties, appropriate documentation to support the disbursements,
proper approvals by BFO for disbursements, or proper authorizations by bureau
management.




                                           12
                                                                            APPENDIX II

                     SAMPLING METHODOLOGY AND RESULTS
                            Non-Statistical Sampling
                              Travel Transactions


This appendix presents the methodology and results of our non-statistical sampling test
for travel transactions.

Sample Objective

The objective of our sample was to determine if dummy vendor transactions were
processed accurately and to assess the effectiveness of the internal controls. The
control activities tested included appropriate documentation of transactions; proper
approvals; proper authorizations; segregation of duties; accurate recording of
transactions; and pre-existing obligations for transactions.

Scope

The universe consisted of 1,020 travel transactions totaling $1,142,690 recorded in FFS
during FY 2010. All dummy vendors in the universe were subject to selection.

Review Methodology

We used GAO “Standards for Internal Control in the Federal Government”, as criteria
for our assessment. For each travel transaction in the sample, we evaluated whether
the dummy vendor transaction included:

   •    appropriate documentation;

   •    proper approvals;

   •    proper authorization;

   •    segregation of duties;

   •    accurate recording in FFS; and

   •    pre-existing obligations recorded in FFS.




                                           13
                                                                               APPENDIX II

                        SAMPLING METHODOLOGY AND RESULTS
                               Non-Statistical Sampling
                                 Travel Transactions

Sampling Methodology and Results

We randomly selected 45 travel transactions from the universe. Our evaluation
identified 15 instances where the transactions did not meet GAO internal control
standards. See the results of the following attributes:

                                                                         Non-
     Test Attributes for Obligations and Disbursements        Tested                Exceptions
                                                                       Exceptions
Appropriate documentation                                      45         38            7
Proper approvals by BFO staff for FFS disbursements            45         45            0

Proper authorizations from bureau management for travel
                                                               45         45            0
transactions and travel vouchers
Segregation of duties                                          45         45            0
Accurate recording of transactions in FFS based on
                                                               45         37            8
supporting documentation

Pre-existing obligations recorded in FFS                       45         45            0
                                           Total Exceptions                            15

Audit Conclusion

Our non-statistical sampling test identified 15 exceptions. As a result, we concluded
that improvements are needed for appropriate documentation and for accurate
recording in FFS for dummy vendor travel transactions. The internal controls over
dummy vendor travel transactions relative to appropriate documentation and accurate
recording of transactions were found to be ineffective.

No exceptions were found for proper approvals by BFO staff for FFS disbursements,
proper authorizations from bureau management, segregation of duties or pre-existing
obligations recorded in FFS.




                                              14
                                                                                APPENDIX III

                   UNITED STATES GOVERNMENT	                                           fl.M C-llli' II·U}

                   MEMORANDUM                                        RAILROAD RETIREMENT BOARD




                                                                             AUG	 03 2011

TO         :	   Diana Kruel
                Assistant Inspector General for Audit


FROM       :	   George V. Govan   ~~
                Chief Financial Officer


SUBJECT:	 Draft Audit of Internal Controls Over Dummy Vendor Transactions


This is in response to your request for comments on the above draft audit report. After
stakeholder comments to me, following are my comments on recommendations
addressed to the Bureau of Fiscal Operations (BFO).

We recommend that the Bureau of Fiscal Operations:

     1.	   identify, reconcile and post all erroneously purged transactions to the
           corresponding FFS vendor document cross-reference table;

           Concur with comment. We agree that any variables used as a means to track
           accounting data should be appropriately identified, reconciled, and posted.
           However, the entries to the table were purged. and they can no longer be
           identified. The software error that caused the purge of the document
           reference table to vendor document cross-reference table was resolved by IT
           staff. It was related to the annual core clearing function, not daily processing
           of transactions. Therefore we consider this item closed.

     2.	   develop procedure to reconcile and post FFS disbursements in the

           document reference table to vendor document cross-reference table.


           Concur with comment. Our plan is to write a script which will perform an
           automatic match of the day's processed transactions (which are associated
           with a vendor code) with the vendor cross-reference table. The output will be
           a report which will be generated if there is an exception. I believe this will
           satisfactorily close recommendation 2 enabling use of the table by current
           agency users. Target date: August 15, 2011.

     3.	   strengthen the review and approval controls for travel vouchers and

           supporting documentation;


           Concur. We will strengthen the review and approval controls for travel
           vouchers and supporting documentation. Target date: October 31,2011.



                                               15
                                                                             APPENDIX III




     4.	   issue a reminder notice regarding appropriate documentation for travel
           vouchers.

           Concur. We will issue a reminder notice regarding appropriate
           documentation for travel vouchers. Target date: September 30, 2011.

     5.	   strengthen controls to ensure that disbursements are supported by
           RRB travel vouchers;

           Concur. We will strengthen controls to ensure that disbursements are
           supported. Target date: October 31 , 2011.

     6.	   remind travelers to include all fees on travel voucher;

           Concur. We will remind travelers to include all fees on travel voucher. Target
           date: September 30,2011.

     7.	   take corrective action for the noted exceptions to ensure that the
           appropriate reimbursements are made; and

           Concur. We will research the noted exceptions and take necessary actions to
           ensure of the appropriate reimbursements. Target date: October 31, 2011.

     10.	 develop procedures for the use of dummy vendors in FFS.

           Concur. We will work with the Office of Administration to develop procedures
           for the use of dummy vendors in FFS. Target date: December 31, 2011.

If there is any additional information you need, please advise me.


cc:	 Henry M. Valiulis, Senior Executive Officer
     John Walter, Chief of ATFS
     Dave Miller, Finance Officer
     Kris Garmager, Financial Systems Manager
     Rill Flynn, Executive Assistant
     Debra Stringfellow-Wheat, Supervisory Auditor




                                              16

                                                                            APPENDIX IV

                                                                                      'OilY   c."" (1·121
                                                                    RAILROAD Rf;TIHIEM~;N'" ROAR!)
                         MEMORANDUM



TO	            Diana Kruel
               Assistant Inspector General for Audit                   ).




FROM:



SUBJECT:                   rt -- Audit ofIntemal Controls Over Dummy Vendor Transactions


This is in response to your memorandum of July 14,2011. I have reviewed the findings and
recommendations in the draft report, and 1 concur with all of the recommendations addressed to the
Office of Administration (OA). All recommendations addressed to OA should be implemented by
December 31, 2011.

Thank you for the opportunity to comment on the draft report.

cc: Chief Financial Officer




                ,   \.




                                                       17

